Department of Health and Human Services

        OFFICE OF

   INSPECTOR GENERAL




 MENTAL HEALTH SERVICES IN

     NURSING FACILITIES




       ~o+
             @
             SERVIC4$
                        qq
       v
      @                      _      GIBBS BROm

      <
                     Inspector   General

      ;
      %
        %
        4+,+
         %dxg                       MAY 1996
          >
                                 oEI-02-91-()()&Tj()
             —




                       OFFICE OF INSPECTOR GENERAL

The mission of the OffIce of ~pector &ner~ (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Dep~ent of Health and Human Services’ (HHS)
programs as well as the health and welfare of benefici~im served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the OffIce of Audit Services, the
Office of Investigations, and the Oftlce of Evaluation and Inspections. The OIG also informs the
Secretary of HHS of program and Wgement problem and recommends courses to correct them.

                           OFFICE OF AUDIT SERVICES
The OIG’SOffIce of Audit Services (OAS)provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying out
their respective responsibilities and Me intended to provide independent assessments of HHS
programs and operations in order to reduce w~te, abuse, and mismanagementand to promote
economy and efficiency throughout the Department.

                           OFFICE OF INVESTIGATIONS
The OIG’SOffice of Investigations (01) conducts criminal, civil, and administrative investigations
of allegations of wrongdoing in HHS progr~ or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of 01 lead to criminal convictions, administrative
sanctions, or civil money penalties. The 01 alSO oversees State Medicaid fraud control units which
investigate and prosecute fraud and patient abuse in the Medicaid program.

                 OFFICE OF EVALUATION AND INSPECTIONS
The OIG’SOffIce of Evaluation and Inspections (OEI) conducts short-term management and

program evaluations (called inspections)that focus on issues of concern to the Department, the

Congress, and the public. The findings and recommendationscontied in these inspection reports

generate rapid, accurate, and up-todate information on the efilciency, vulnerability, and

effectivenessof departmental programs.


This report was prepared in the New York Regional OffIce under the direction of Regional

Inspector General Alan S, Meyer, Ph.D. Project staff included:


New York                                                      Headquarters


Renee C. Dunn, P.T. (Project Leader)                          Jennifer Antico

Lucille M, Cop, R.N. (Lead Analyst)                           Barbara R. Tedesco

Nancy Harrison                                                Brian Ritchie

Steven B. Harris (Intern)

Sheila Weigert (Intern)                                       Mti i~ Review Ccmtractor

                                                              FMAS, Inc., Rockville, MD

To obtain a copy of this report contact the New York Regional Office at (212) 264-1998
Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




 MENTAL HEALTH SERVICES IN
     NURSING FACILITIES




                ~~ SERVICE$
           J+                 q+
       $

      #                            JUNE   GIBBS BROWN
      $                            Inspector   General
      z
      %
       %++ $
            %.f~~
            2                               MAY 1996
                                          oEI-02-91-()()8fj()
              EXECUTIVE                            SUMMARY

PURPOSE

To identifi possible vulnerabilities to the Medicare program in the provision of mental
health services to nursing facility residents.

BACKGROUND

Events in the past few years have focused attention on mental health care for nursing
facility residents. The number of nursing facility residents with mental disorders has
increased; the Nursing Home Reform Act, which provided new protections for residents
and sweeping reforms of many aspects of life in nursing homes was implemented; and
Medicare payments tripled in the wake of an expansion of Part B coverage of these
services. Many nursing home residents have benefitted from services not previously
available to them. However, some problems remain. On the one hand, some may not be
getting the care they need. On the other hand, the Office of Inspector General has
received allegations of abusive practices relating to these services, primarily about
Medicare being billed for unnecessary or inappropriate services.

Our study is meant to draw an overall picture of the kinds of mental health services being
provided in nursing facilities and to identify any potential vulnerabilities for the Medicare
program.

We based our results on a review of medical records maintained by nursing homes for the
five Medicare codes that were most commonly reimbursed to psychiatrists, clinical
psychologists, and clinical social workers in 1993. We also interviewed knowledgeable
persomel and reviewed pertinent policies and documents. We selected nursing facility
records as the basis of our sampling because these records are generally used by HCFA
and its contractors to assess the appropriateness and quality of care provided to Medicare
beneficiaries, and they are the primary source of information for records reflecting care
actually delivered to a patient during a stay in a nursing facility. These records also
provide a full accounting of all services delivered. We contracted with FMAS, Inc., a
medical review contractor, which employed psychiatrists, psychologists, and social
workers to review the records and the services provided by their peers.

FINDINGS

In 32 percent of the records received, Medicare paid for medically unnecessary services;
this projects to $17 million, or 24 percent of all 1993 Medicare payments for mental
health services for nursing home residents.

Of the 397 medical records received for review, 126 contained medically unnecessary
services. In forty-one records, all services were unnecessary; and in 85 some were
umecessary. Medically unnecessary services are those which our medical reviewers


                                              i
concluded were inappropriate based on information in the medical record concerning the
patient’s condition, need for treatment, and ability to benefit from the treatment.

In 16 percent of the records received, Medicare paid for highly questionable services;
this projects to $10 million in Medicare payments

In sixty-three records, all services were highly questionable. Highly questionable services
are those where the medical record led the reviewers to raise serious questions about the
medical necessity of the services, but where the evidence in the medical record was
insufficient for the reviewers to make a deftitive determination.

In another forty the documentation was so poor they could not be reviewed. These forty
records did not contain enough information for the screeners to even refer the records to
the, clinical reviewers,

In 30 percent of the records, the wrong code appears to have been billed

According to the medical reviewers, in thirty percent of the 225 cases where they had
enough information to determine what the correct procedure code should be, the code
billed appeared to have been incorrect. In over half of these cases the service appeared to
be medication management without any documentation of psychotherapy, but
psychotherapy was billed.

At the same time, difficulties remain in delivering needed mental health services to
beneficiaries

We found that some beneficiaries are not getting the care they need. For example, some
received psychotherapy without being evaluated for medication which might have been
helpful. Others received erratic, inconsistent services when they needed consistent
psychotherapy. We also found that the skill levels of some providers may not have been
adequate.

Certm”ntypes of procedures, providers, residents, and re~”ons are more likely than others
to be associated with unnecessary and questionable services

Psychological testing and group therapy are more likely (79 percent) to be medically
unnecessary or questionable than evaluation and individual therapy (47 percent). Among
the provider types, clinical psychologists and clinical social workers had the highest
percentage (61 percent) of unnecessary and questionable services billed to Medicare.
Among age groups, the “old, old” (over 85) were most likely to have unnecessary or
questionable services. Sixty-two percent of these residents had such services compared to
47 percent of those under 85. Those residents with a mental health diagnosis of dementia
including Alzheimer’s disease, were more likely (58 percent) to receive questiomble or
umecessary services than those with other diagnoses (45 percent). Records from nursing
facilities in the South were slightly more likely to have unnecessary or questionable
services than other parts of the country.


                                             ii
Many Factors Make Mental Health Service       Billings
                                                    Vulnerable      To Abuse

We found the following conditions which might jeopardize Medicare payment integrity:

   .   Lack of physician involvement,

   .   Impediments of social service staff involvement,

   .   Missing treatment plans,

   .   Lack of utilization guidelines,

   �   Lack of carrier policies and screens specific to nursing facilities, and

   .   Difficulty identifying patients’ nursing facilities.


RECOMMENDATION

HCFA needs to take steps to prevent inappropriate payments for mental health services in

nursing facilities. The challenge lies in ensuring the integrity of Medicare payments while

promoting the delivery of needed care. There probably is no one simple solution.

Instead, a battery of carefully applied remedies is needed.


Based on the mture of the problems we identified, we suggest the following approaches

that HCFA, in concert with the carriers, might take:


  �    Develop guidelines for carriers with delineation of exactly what the psychiatric
       procedure codes mean, what can be billed for, who can bill, and how often;
  �    Develop screens to implement these guidelines;
  �    Conduct focused medical reviews;
  �    Provide educational activities to providers of mental health services;
  �    Clarify who can provide services incident to physician or clinical psychologist
       services;
  �    Assure that the nursing facility provider number and name is on all claims for
       patients in nursing facilities;
  �    Clari@ the requirements needed to become an independent mental health provider;
  �    Identi~ and disseminate information about effective ways to help residents adjust
       quickly to the nursing facility to prevent the need for later clinical intervention;
       and
  �    Convene a group of medical professionals to develop best practices in documenting
       the nursing facility medical record and provide guidance to nursing facility
       professionals.

OPERATION RESTORE TRUST STRATEGIES

This inspection is a part of a Department of Health and Human Services       anti-fraud
initiative called Operation Restore Trust designed to target fraud, waste,   and abuse related
to home health agencies, nursing homes, and durable medical equipment         suppliers. This
initiative targets California, Florida, Illinois, New York, and Texas, the   five States with
the highest number of Medicare and Medicaid beneficiaries.



                                              ...
                                              111
We will work with HCFA and the Administration on Aging          (AoA)  to follow up on issues
raised in this report in a variety of ways as they relate to Operation Restore Trust. For
example, we will refer possible cases of fraud and abuse found in this inspection for
additional review by HCFA and our own audit and investigations units, as appropriate.
HCFA’S protocol for survey and certification staff to look at mental health services in
nursing facilities when on-site will be beneficial not only in preventing inappropriate
payments, but also in improving the quality of services. We will also communicate with
the Administration on Aging to make the State Ombudsmen aware of possible
inappropriate or inadequate mental health services. We intend to issue a follow-up report
providing information specific to the five project ORT States.

COMMENTS

The HCFA and the Assistant Secretary for Planning and Evaluation (ASPE) concurred
with our recommendation. The HCFA details the actions they are taking in response to
carry it out. The HCFA and ASPE also made suggestions for changes in wording,
clarifications of the text and technical changes which we have for the most part
incorporated into the final report. The actual comments received are in Appendix D.




                                             iv
                          TABLE                     OF        CONTENTS

                                                                                                              PAGE
EXECUTIVE SUMMARY

INTRODUCTION                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         1



FINDINGS . . . . . . . . . . . . . .               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    8


     �   unnecessaryServices        . . . . .      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    8


     . Questionable Services        . . . . .      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    8


     . Wrong Procedure Codes.              . . .   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    9


     . Needed Se~ices         . . . . . . . .      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   10�

     � characteristics    of Questio~ble           Services    . . . . . . . . . . . . . . . . . . . . . . . . . . 12


     �   vu~erabfiities   . . . . . . . . . .      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   14



RECOMMENDATION                    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 . 17


APPENDICES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

A: Description ofProcedureCodes.                      . . . .. . . . . . . . . . . . . . . . .   . . . . . . . . A-1

B: Sampling and Projections                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-1

c:       Non-Respondent Analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . c-1

D: Comments. . . . . . . . . . . . . . .                . . . . . . . . . . . . . . . . . . . . . . . . . . ..D-l
                           INTRODUCTION

PURPOSE:

To identify possible vulnerabilities to the Medicare program in the provision of mental
health services to nursing facility residents.

BACKGROUND:

Events in the past few years have focused attention on mental health care for nursing
facility residents. ~enumber    ofnurshg facili& residents witimen~l disorders has
increased; the Nursing Home Reform Act, which provided new protections for residents
and sweeping reforms of many aspects of life in nursing homes was implemented; and
Medicare payments tripled in the wake of an expansion of Part B coverage of these
services. Many nursing home residents have benefitted from services not previously
available to them. However, some problems remain. On the one hand, some may not be
getting the care they need. On the other hand, the Office of Inspector General has
received allegations of abusive practices relating to these services, primarily about
Medicare being billed for unnecessary or inappropriate services.

The number of individuals with psychiatric disorders residing in nursing facilities
surpasses the number in psychiatric hospitals, according to the American Psychiatric
Association (APA). Recent studies have also shown that psychiatric disorders and
emotional, behavioral, and cognitive problems are present in a majority of nursing facility
residents. However, it is difficult to precisely quantify the extent and types of problems
because these conditions are not always the primary reason for institutionalization, and are
not always accurately reported in patients’ medical records.

The Nursing Home Reform Act

As a pmt of the Omnibus Budget Reconciliation Act (OBRA) of 1987, Congress passed
the comprehensive Nursing Home Reform Act (PL 100-203). This expanded requirements
that nursing facilities had to meet for Medicare certification. It focused on each resident’s
highest potential for physical, mental, and psychosocial well-being with reasonable
accommodation for individual needs and preferences. The Act mandated that all
applicants to Medicaid certified nursing facilities and all nursing facility residents must be
screened to determine whether they have a mental illness or mental retardation, whether
they need active treatment, and whether they need the level of nursing care provided by a
nursing facility. This Preadmission Screening and Annual Resident Review (PASARR),
implemented in 1988, is the screening process used to determine those nursing facility
residents who need both specialized mental health services and nursing facility care and
can stay in a nursing facility and those residents that need specialized services, but not
nursing facility care, and must be transferred to a more appropriate setting unless they
have lived in a nursing facility more than 30 months and choose to stay. The State is
responsible for making sure that the residents get the specialized services they need.
The Nursing Home Reform Act also requires that residents appropriately placed in nursing
facilities receive a full range of services to address their psychosocial needs and
behavioral problems. This range of services is not precisely defined, but nursing facilities
must “conduct standardized, reproducible assessments of each resident’s functional
capacity... ” within 14 days of admission, if the patient’s condition changes, and at least
every 12 months to determine the appropriate services. This assessment uses the Resident
Assessment Instrument which is a multidimensional, clinically focused evaluation tool. It
provides a basis for identifying problems and developing a resident’s plan of care. The
instrument has two parts: the Minimum Data Set which is the basis of the resident
assessment process and the Resident Assessment Protocols (RAPS) which identify the
residents’ unique problems. This information is used by the interdisciplimry team and the
resident when developing the resident’s individualized, comprehensive care plan. Seven
of the 18 RAPs specifically address mental health problems commonly found in nursing
facilities such as delirium, cognitive loss/dementia, psychosocial well-being, sad and
anxious moods, behavior problems, psychotropic drug use, and use of physical restraints.

The Nursing Home Reform Act also mandated the development of regulations constraining
the use of psychotropic drugs. The Health Care Financing Administration (HCFA)
regulations state that residents must be free from unnecessary drugs, not be given
antipsychotic drugs except to treat a specific condition, and be given gradual dose
reductions.

Medicare Coverage of Mental Health Services

As with all Part B Medicare services, covered mental health services must be “reasonable
and necessary for the diagnosis or treatment of an illness or injury or to improve the
functioning of a malformed body member. ” Payment is prohibited for medical services
that are for prevention, palliation, research or experimentation. In the absence of mtional
policy, local carriers determine their own policies.

Services may be provided by different professionals. Medicare defines each of these
specialties for the purposes of coverage. While psychotropic drugs may be prescribed
only by a physician, behavioral and psychotherapeutic approaches may be carried out by a
psychiatrist, a clinical psychologist and/or a clinical social worker.

While clinical psychologists’ and social workers’ services are covered the same as services
by a physician, they may only provide those services they are legally authorized to
perform in their State, Additionally, independent clinical social workers may not bill
Medicare Part B for services finmished to an inpatient of a skilled nursing facility that the
facility is required to provide as a Medicare condition of participation.

Medicare Expanswn of Mental Health Bene@s

From 1966 until 1988, Section 1833 of the Social Security Act placed a cap on each
Medicare beneficiary’s psychiatric outpatient costs incurred during a calendar year. Prior
to 1988, Medicare paid no more than $250 annually for covered outpatient treatment of


                                            2
mental, psychoneurotic, or persomlity disorders. This was based on 62.5 percent of a
maximum of $500 in reasomble charges and subject to a fhrther reduction of 20 percent
for co-insurance. Charges for initial diagnostic services, i.e., psychiatric testing and
evaluation to diagnose the patient’s illness, were never subject to this limitation.

The 1987 OBRA liberalized Medicare Part B coverage of outpatient psychiatric services.
Beginning in 1988, reimbursement for outpatient psychiatric services increased to $450
annually, based on 62.5 percent of $900 in reasomble charges and a further reduction of
20 percent for co-insurance. In January 1989, this was increased to $1100 annually,
based on 62.5 percent of $2,200 with a 20 percent co-insurance, This legislation also
expanded Medicare coverage to include therapeutic services directly finmished by clinical
psychologists, effective July 1988, but covered services were restricted to those furnished
in certain settings such as community mental health centers.

The 1989 OBRA further expanded the Part B Medicare psychiatric benefit. It eliminated
the dollar cap on outpatient psychiatric reimbursement, effective January 1, 1990,
although the reasonable charges are still reduced by a 62.5 percent limitation and the 20
percent co-insurance remains in effect. Brief office visits for the sole purpose of
monitoring or changing drug prescriptions and any partial hospitalization services not
furnished by a physician were excluded from the 62.5 percent limitation, effective January
1989. In addition, effective July 1990, direct payment to clinical psychologists can be
made in all settings and to clinical social workers in most settings.

fiends in Medicare Reimbursement

Medicare reimbursement for the five most commonly reimbursed mental health HCPCS
codes for psychiatrists, clinical psychologists and clinical social workers for all Part B
services show a 57 percent increase, from $353 million in 1991 to $555.6 million in 1993.
However, these same codes for the same three provider types for services provided in
nursing facilities showed a 244 percent increase, from $20.8 million in 1991 to $71.7
million in 1993. Deftitions of the procedure codes are in Appendix A.

Concerns About Possible Fraud and Abuse

During the years prior to liberalization of the outpatient psychiatric benefit in 1988,
postpayment claims monitoring by HCFA and Medicare carrier staff identified a variety of
abusive and fraudulent physician practices. Among the most common were those
involving nursing home and old age home patients, many often incapable of
communication, whose Medicare accounts were billed for lengthy psychotherapy sessions,
individual and group. In some cases no service was rendered; in many others a brief visit
to check and/or adjust drug prescriptions was the actual service. However, outpatient
psychiatric services were not usually given intense scrutiny by HCFA, presumably
because of the cap on outpatient reimbursement.

After three and one-half years of uncapped Part B psychiatric benefits and three years of
covered clinical psychologist and clinical social worker services, only limited HCFA


                                            3

review of the mture and extent of these services and the practices of their providers takes
place. One kind of review that carriers have available is called focused medical review
which targets more in-depth medical review efforts at claims for items, services or
providers that present the greatest risk of inappropriate payments. In 1992 and 1993,
there was minimal Medicare carrier focused medical review of @ese services. However,
in one identified instance of carrier focused review of psychological testing, the review
established that the psychological testing conducted in nursing homes by certain clinical
psychologists was excessive and unnecessary.

A HCFA-funded Medicare carrier study in Arkansas has been looking at ancillary services
in nursing facilities. While reviewing beneficiary records, this carrier discovered
problems involving consultation and psychotherapy services provided by non-physicians in
nursing facilities. One problem involved clinical psychologists in group practice billing
for therapy provided by unsupervised non-clinical social workers. After readjudicating
claims from the group which billed for these services from 1988 to early 1992, the carrier
has recovered nearly a quarter million dollars and may assess additional overpayments.

Cases of suspected fraudulent practices involving outpatient psychiatric services have been
recently identified by carriers and referred to the OIG. An August 1992 OIG fraud alert
addresses concerns about excessive and fraudulent billing for psychotherapy services
provided by a clinical psychologist. It reports a pattern of aggressive marketing of
psychological services to Medicare beneficiaries in certified retirement and nursing
facilities.

AARP Public Policy Institute Study

A 1994 report “Barriers to Mental Health Services for Nursing Home Residents” was
published by the AARP Public Policy Institute. The goal of the project was to develop
data about the need of nursing home residents for mental health services, the availability
of such services, and the barriers to obtaining needed care.

Policy makers and researchers who contributed to the report agreed that many mentally ill
nursing home residents would benefit from increased attention from mental health
professionals. These residents often respond well to short-term interventions. They go on
to say that mental health services are scarce in nursing facilities because of low Medicare
and Medicaid reimbursement rates; lirnhs to mental health coverage under these programs;
and difficulties that facilities face in recruiting mental health professiomls to work in
nursing homes,

They concluded that the presence of mental health professionals such as psychiatrists,
psychologists, psychiatric and geriatric nurses, and clinical social workers in nursing
facilities is the key to helping residents with mental disorders. They felt that timely
treatment can forestall further decline and that attracting the necessary mental health
professiomls to nursing facilities would require improved reimbursement rates and fewer
restrictions on services,



                                            4

We based our     results on a review of medical records maintained by nursing homes for the

five Medicare    codes that were most commonly reimbursed to psychiatrists, clinical

psychologists,   and clinical social workers in 1993. We also interviewed knowledgeable

personnel and    reviewed pertinent policies and documents.


First, we selected a simple random sample of 540 beneficiary claims from the 1993

HCFA Common Working File which meet certain conditions. The sample consists of

beneficiaries who received any one of five of the six top HCFA common procedure

coding system (HCPCS) services: psychiatric diagnostic interview (90801); psychological

testing with written report (90830); individual psychotherapy, 20 to 30 minutes (90843);

individual psychotherapy, 45 to 50 minutes (90844); and group psychotherapy (90853)

provided in a nursing facility. A more detailed description of these procedure codes is

given in Appendix A. Pharmacologic management and review of medication with no

more than minimal medical psychotherapy (90862) was eliminated from the universe prior

to sampling because that procedure code can only be billed by a medical doctor and not a

psychologist or social worker. All claims by a psychiatrist for an evaluation only were

also omitted. The place of service for all sample beneficiaries was either skilled nursing

facility (SNF) or nursing facility (NF). Although in the course of this study we reviewed

only services billed to Medicare, the beneficiaries may have been Medicaid eligible as

well.


Beneficiary claims in this sample were handled by 33 Medicare carriers who we contacted

to obtain copies of claims in order to identify the nursing facility where services were

provided. Next, we asked the nursing facilities to send us copies of the sample patients’

medical records. We requested: the initial admission evaluation; all mental health

documentation during the patient’s entire stay; and for 1993, all nurse’s notes, medication

orders, physicians’ notes, including consultations; and any patient assessments that were

done.


We selected nursing facility records as the basis of our sampling for several reasons.

First, these records are frequently used by HCFA and its contractors to assess the

appropriateness and quality of care provided to Medicare beneficiaries. In conversations

with HCFA contractors, we were told that they generally rely on records maintained at the

site of service for these purposes. ‘1’hus,they are the primary source of information for

records reflecting care actually delivered to a patient during a stay in a nursing facility.

Second, these records contain a full accounting of all services delivered and thus provide

better documentation from which to assess medical necessity than fragmented provider

based records. Third, nursing facilities, like hospitals, are required to maintain patient

records reflecting the care provided to their patients.


We received 397 (74 percent) of the 540 records requested. We contracted with FMAS,

Inc., a medical review contractor to review the medical records which did not pass the

screens. The screening was done by either the inspection team or FMAS, Inc. screeners.

The instrument used for screening the records was developed by the contractor using



                                             5
clinical screens generally accepted among mental health care peer review organizations.
These screens are used for reviewing records for all patients requiring mental health care.
In developing the screening instrument, the medical review contractor did a literature
search and talked to people who had leadership roles in their professioml organizations.
The screening instrument included variables such as the patient’s diagnosis and treatment,
both medical and psychological, how the mental health treatment was initiated, its goals,
indications for testing, how the tests are used, the existence of a treatment plan, and any
changes in the patient’s status after treatment.

The first listed service in 1993 which was one of the five sampled procedure codes was
screened against the clinical guidelines in the case screening instrument (397 medical
records). We will call this the sample service. In forty records documentation was so
poor they could not be reviewed. Cases failing the clinical screens for this fwst service
were referred to the contractor’s clinical reviewer of the same provider type as that on the
claim for fhrther review of all 1993 mental health services (248 medical records). Those
passing the screens were not reviewed any further (109 medical records). In those
referred, the medical reviewers determined which services were medically necessary,
which services were medically unnecessa~ or which were highly questiomble.

We also selected a random subsarnple, from the sample of 540 claims, of 120 nursing
facilities in which the sample beneficiaries resided to interview the administrator by
telephone. We were able to contact 102 nursing facility administrators or their designees
who were directors of nursing and/or social workers on their staffs to get their views on
the increased utilization of the mental health benefit, any problems associated with it, its
impact on nursing facility residents, barriers to services and effects of adding clinical
psychologists and clinical social workers as Pafi B providers.

We obtained from the carriers beneficiary histories for each case to determine how many
and what types of mental health professionals were involved in the beneficizuy’s care and
how often mental health services other than those sample procedure codes were provided
in each case.

We asked all 42 Medicare carriers for their policies, procedures and guidelines for mental
health services, as well as any related bulletins or provider education materials. We also
asked about any cases they are developing related to fraud and abuse in mental health
services in nursing facilities, whether they conduct focused medical review in this area,
and what their thoughts are on the inspection issues.

Lastly, we purposively selected 16 carriers from the universe of 42 to include: at least one
carrier from each of the five Operation Restore Trust States (a total of 6 carriers); and
another 10 carriers based on their activities in the mental health area and having a
substantial number of claims in our sample. One or more officials from each of the
carriers were asked about documentation of claims, complaints, monitoring, barriers to
services and effects of adding clinical psychologists and clinical social workers as Part B
providers.



                                            6

The Chi-square statistic was used to test the statistical significance of differences in
medical necessity by types of procedures, providers, residents and regions. All
differences reported are statistically significant at the 95 percent cotildence level. Details
of this are in Appendix B. The precision for questions in the medical review screening
instrument and the nursing home administrator questionnaire is reported in Appendix B.
The cofildence intervals for the estimates in the sample are also given in Appendix B.
The results of the respondent, non-respondent amlysis are in Appendix C.

Strengths and Limitti”ons of Methodology

As discussed earlier, the strengths of this kind of review include:

  �	   the nursing facility record presents a total picture of the patient, with a whole
       range of relevant information regarding the patient’s condition, not just information
       for the particular services under review, and
  �	   the study reflects the level of quality control and payment suppofi available in the
       nursing facility, which is required by HCFA to retain all documentation about the
       patient in the nursing facility record.

The limitations of relying on the nursing facility medical records include:

  .    documentation may not reflect the actual services,
  �    documentation may be incomplete or in other ways inadequate, and
  �    other relevant documentation available elsewhere is not considered.

We conducted our review in accordance with the Standards for Inspections issued by the
President’s Council on Integrity and Efficiency.




                                            7

                                 FINDINGS

In 32 Percent of the Records Received, Medicare Paid for Medically Unnecessary
Services; This Projects to $17 Million, or 24 Percent of All 1993 Medicare Payments
for Mental Health Services for Nursing Home Residents

Of the 397 medical records received, 126 contained medically unnecessary services.

Forty-one had all 1993 services unnecessary and 85 had some of the 1993 services

unnecessary.


Medically unnecessary services are those which our medical reviewers concluded were

inappropriate based on information in the medical record concerning the patient’s

condition, need for treatment, and ability to benefit from the treatment. For example, an

85 year old woman with a mental health diagnosis of dementia had weekly billings for

group therapy. The medical reviewer says the notes clearly reflect the patient had no

complaints, no anxiety or depression, and no need for group therapy. Another 85 year

old woman in a different facility with dementia and Parkinson’s syndrome had periodic

billings for longer psychotherapy sessions. The record showed she was unable to

converse and had no understanding due to dementia. One psychologist who saw her stated

that one to one psychotherapy was inappropriate for this patient.


Based on our sample we project that this represents $17 million in 1993 Medicare

payments. This is 24 percent of $71.7 million for all Medicare payments for mental

health services provided to residents of nursing facilities for that year.


In 16 Percent of the Records Received, Medicare Paid for Highly Questionable
Services; This Projects To $10 Million in Medicare Payments

In sixty-three records, all services were highly questiomble. Highly questiomble services
are those where the medical record led the reviewers to raise serious questions about the
medical necessity of the services, but where the evidence in the medical record was
insufficient for the reviewers to make a definitive determination.

For example an 87 year old woman who is confused, cannot hear, and is severely
demented had weekly billings for group therapy with occasioml longer sessions of
individual psychotherapy. The medical reviewer felt the patient was in need of
socialization such as art or movement therapy; but the documentation did not assess how
she was benefiting from group therapy. Thus he questioned the need for the group
therapy. An 88 year old man with no mental health diagnosis, but a medical diagnosis of
seizure disorder and stasis ulcers was billed for weekly short, individual psychotherapy.
The reviewer questioned this treatment because he could not fmd any reasons for the
referral to the psychologist and the medical record shows the patient doing very well and
not in need of psychotherapy.




                                          8

In another forty records the documentation was so poor they could not be reviewed.
These forty did not contain enough information for t.he screeners toeven refer the records
to the clinical reviewers.

In 30 Percent of the Records, the Wrong Code Appears To Have Been Billed

Improper Coding

According to the medical reviewers, in thirty percent of the 225 cases where they had
enough inforrnationto determine what the correct procedure code should be, the code
billed appeared tohave been incorrect. Inoverhalf of these cases theservice appeared to
bemedication maagement witiout anydocumentition ofpsychotierapy, but
psychotherapy was billed.

In16percent ofthose with the questionable code, alonger psychotherapy session was
billed either with no documentation to support the longer time or with the record showing
a profile of a patient who could not benefit from a longer session. The clinical reviewers
found it difficult to determine whether brief psychotherapy or longer psychotherapy was
the appropriate code, since the length of the psychotherapy session was rarely
documented.

Often, the clinical psychologist or clinical social worker may evaluate a resident and make
treatment recommendations to the primary care physician and the nursing facility staff.
The clinical reviewers say there is no procedure code for a follow-up visit to see how the
resident is responding to the treatment. They probably use a psychotherapy code even
though no psychotherapy is performed. Another problem the reviewers mentioned was
when a clinical psychologist evaluates the resident and refers her/him to a social worker.
The social worker often does another evaluation and bills for it. The clinical reviewers
feel this is inappropriate.

Routine Billing of Additional Codes

The majority of the beneficiary histories that contained adequate information and could be
reviewed indicated that no other psychiatric codes or evaluation and management codes
were billed to the program in addition to the five sample codes.

However, questionable billing practices were found in some carriers. We found billing
for a variety of psychiatric codes in addition to the codes in our sample. Depending on
the carrier, some codes are more popular than others. One carrier in the Northeast had
psychiatrists billing for initial and follow up consultation codes as well as the evaluation
and mamgement codes on a frequent basis on each of their patients. Social workers in
this carrier bill for environmental intervention on the patient’s behalf repeatedly for the
same beneficiary. All of this is in addition to procedure codes in our sample.




                                             9

Another carrier had psychiatrists billing the code for medication management more
frequently than had other carriers. Thk was in addition to billing for psychotherapy
which includes medication management.

In other carriers, atypical billing patterns are limited to individuals or groups of providers.
One such group in the South has the psychiatrist, psychologist, and social workers treat
patients; and a frequently billed code is evaluation of hospital records as well as the
medication management code. Another popular code used by a psychologist is the
interactive diagnostic interview which is designed to utilize physical aids and non-verbal
communication with patients who have difficulty in communicating. Another Southern
carrier had a group alternating billing between nursing facility and office for group
therapy sessions. In some instances, when the bill was denied in one location it was billed
to the other location and paid.

The billing practices in some Midwest carriers indicate that psychiatrists are also billing
for the evaluation and mamgement codes on their patients as well as for the sample codes.
They also bill for interactive individual psychotherapy more frequently than providers in
other carriers.

At the Same Time, Difficulties Remain in Delivering Needed Mental Health Services
To Beneficiaries

Some Beneficiaries Are Not Geti”ng Needed Care

The medical reviewers found some of the patients had billings and were receiving certain
kinds of services without any benefit when they really would have benefitted from
different services. One 89 year old woman who had a major depressive disorder and
would have really benefitted from intensive psychotherapy had irregular and inconsistent
social work sessions which did not document any benefit. Another 84 year old woman
with severe dementia who could not converse and was not really capable of making
changes had billings for psychotherapy when she really required medication management.
The reviewers also questioned the case of an 85 year old woman who had billings for
longer psychotherapy sessions once or twice a month with no change when she could have
benefitted from psychotropic medication which she did not get.

Seventy-eight percent of the nursing facility respondents cite barriers nursing facility
residents face in getting needed mental health services. They say there are still areas in
the country where providers are not available and providers who do not want to go into
nursing facilities since they are not interested in this type of patient. Some say there is a
stigma associated with mental health services and patients, or their families refuse needed
services. At times, the attending physician reportedly feels this way and refines to order
what nursing facility staff see as needed services. Also noted is a lack of awareness of
mental health illness on the part of some of the nursing facility staff working with these
patients. Some nursing facility respondents mention that depression is under diagnosed
and therefore not treated or sometimes leads to a misdiagnosis of dementia.



                                            10

Lesser Skilled People Provtiing Services

In 24 percent of the records it was impossible to determine who provided the services.
Either there was not enough documentation to tell or the person who signed the record
could not be identified. In these services where we could not identify the provider, the
person who submitted the claim was usually a psychiatrist (41 percent) or clinical
psychologist (34 percent) and a lesser skilled person could well have provided the service
because there were often no credentials after the name. Although Medicare permits this
through “incident to billing, ” it is not clear that the professioml who bills the service is
actually in the nursing facility supervising while the service is being delivered as required.
Thirty-eight percent of the carriers cited problems around services given “incident to. ”

The clinical reviewers also expressed concern about the effectiveness of a lesser skilled
person performing psychotherapy. They reported that in many cases when the provider
type submitting the bill was a psychiatrist or clinical psychologist, the record was clearly
documented that the service was performed by another provider type. This included but
was not limited to a person with a Bachelor of Arts (BA), a social worker (with or
without licensing credentials), and a nurse (with or without nurse practitioner credentials).
The reviewers consider this practice inappropriate. Typical of this was an 84 year old
woman with a diagnosis of depression who had billings for four hours of psychological
testing. The reviewers found that person with a BA degree administered the tests and feel
that a psychologist would not be allowed by the State licensing board to delegate
responsibilities in this way.

In some cases the name of the clinical psychologist who submitted the bill was
documented in the medical record as an M.A. or Ed.D. rather than a Ph.D. Some
carriers have questioned the carrier process of giving out provider numbers and whether
people without proper qualifications are billing Medicare.

Clinical Psycholo@”stsand Clinical Social Workers Seen as Beneficial

Perhaps due, in part, to the lack of qualifications and the shortage of social service staff,
seventy percent of nursing home respondents see a beneficial effect and sixty-four percent
view patients as better off since clinical psychologists and certified social workers can bill
Medicare independently. A psychologist in our sample treated a 94 year old resident for a
major depressive disorder with suicidal ideation. The reviewer indicated that the
psychotherapy was necessary and the notes were comprehensive and helpful.

Most of the nursing home respondents (70 percent) say that allowing clinical psychologists
and certified social workers to bill Medicare Part B independently has had a beneficial
effect on providing mental health services in nursing facilities. These respondents feel it
has provided better access to mental health services, and that clinical psychologists and
social workers are more available than psychiatrists and are now more willing to come
into nursing facilities now that they can get paid. They say that this, in the end, provides
better patient care. Almost two-thirds (64 percent) say that patients are better off now,
since they are getting necessary treatment.


                                            11
The carriers generally agree. Sixty-three percent see some positive results from adding
clinical psychologists as Medicare providers and 44 percent see some benefit from adding
social workers.

Certain Types of Procedures, Providers, Residents, and Regions Are More Likely
Than Others To Be Associated with Unnecessary and Questionable Services

Psycholo~”cal Testing and Group l%erapy

Seventy-nine percent of psychological testing and group therapy were found to be
medically unnecessary or questionable as compared to 47 percent of evaluation and
individual therapy. If we separate all the procedures, eighty percent of the psychological
testing and three quarters of group therapy were found to be umecessary or questionable.
However, the longer individual psychotherapy (59 percent,) evaluations (46 percent,) and
brief individual psychotherapy (39 percent) still had excessive rates of questionable and
unnecessary services. These rates for testing, group therapy, and the longer individual
psychotherapy are all higher than the average rate of 53 percent for all types of services.

An example of unnecessary testing is the case of a 91 year old man admitted to a nursing
home with terminal cancer who died within a month of admission. A psychologist billed
for many hours of testing. The clinical reviewer questioned the need for testing this
resident who had been admitted to the nursing facility to spend his last weeks.

Psychological testing was poorly documented with often no evidence of the actual tests in
the record. Testing was often billed when rating scales were administered as opposed to
those tests referred to in the CPT manual as psychological testing. The clinical reviewers
feel that clarification should be provided concerning the appropriate procedure code to use
for these rating scales, such as the Beck Depression Inventory or the Geriatric Depression
Inventory. These rating scales may not require the same highly specialized administration
and scoring as intellectual, persomlity, memory or neuropsychological tests. The
questions on rating scales are generally self-explanatory and they are usually scored by
totaling relevant response options.

Half of the carriers feel that group therapy is a problem; they point to services billed for
recreatioml and socialization activities. Some carriers also mention each of the other
services as problematic.

The reviewers noted that some of the group therapy sessions claimed were groups like the
“tea time group” or the “wake up” group which appeared to be more appropriately social
groups rather than psychotherapy.

Clinical Psycholo~”sts and Clinical Sociul Workers

Among the various provider types, clinical psychologists and clinical social workers had
the highest percentage (61 percent) of unnecessary and questiomble services billed to



                                            12

Medicare. Incomparison,     46percent ofpsychiatiisfi'   billkgs were eitier questionable or
unnecessary.

Forexarnple, apsychologist billed for 10units oftestingofa78         year oldman witha
diagnosis of dementia and there was no indication in the record as to why the patient was
tested, and no test report or even a brief report of the findings in the record. The
reviewer questioned the need for the testing and said a mental status exam or
psychological evaluation would have been appropriate.

About two-fifths of the carriers reported “excessive entrepreneurialism, ” particularly
among psychologists. They were generally less likely to see these problems with social
workers. Also, half of the nursing facility respondents mention the marketing practices by
groups of mental health workers to their facilities.

Residents Over 85

The “old, old” were most likely to have unnecessary or questionable services. Sixty-two
percent of the residents 85 and older had such services compared to 47 percent of those
under 85. Only 29 percent of those under 65 had unnecessary or questionable services.
A sample case was that of a 100 year old with senile dementia who was seen by a
psychiatrist in group therapy for 6 months. For service on the sample date, the resident
did not attend because of medical reasons, but the bill was submitted. The reviewer was
umble to determine a clear indication of any mental illness and because the resident had
severe dementia, the reviewer questioned the benefit of therapy.

Dementia

Those residents with a mental health diagnosis of some sort of dementia, including
Alzheirner’s disease, were more likely (58 percent) to receive questiomble or unnecessary
services than those with other diagnoses (45 percent). An example is a 97 year old with
Alzheimer’s disease who was seen for individual psychotherapy weekly, for 12 months.
The reviewer indicated that this patient did not need weekly therapy sessions. He felt
social activities at the facility would have been helpfil with occasioml therapy sessions
once or twice a month.

The South

Nursing facilities in the South (61 percent) were somewhat more likely than the rest of the
country (49 percent) to have umecessary or questiomble services. However, the
Midwest and the West each had more than half (56 percent) of their services umecessary
or questionable. Only the Northeast had less than the natioml average with 41 percent of
unnecessary and questiomble services. Some States within each region had a majority of
their services either unnecessary or questiomble.

A number of providers treated multiple patients in the sample. Half of these providers
were from the South. Eighty-one percent of these providers had unnecessary or


                                           13
questionable services. They were often members of groups that had different disciplines
treating patients in a number of different nursing facilities or treating a number of patients
in the same facility.

Many Factors Make Mental Health Service Billings Vulnerable To Abuse

Luck of Physician Involvement

The clinical reviewers noted that a common practice in the records was to see physician
orders for psychiatric, psychological, or mental health services on an “as needed” or
 “pm” basis. An example is a 78 year old man with dementia who had 10 units of
psychological testing. The reviewer saw no reason for the testing and could not fmd who
referred the patient. However, there was a standing order in the record for “psych
services as needed. ” They also question the appropriateness of these services. The
reviewers recommend that physician orders for these services be based on each patient’s
individual needs, and that routine standing orders for these services be discouraged or not
allowed.

Seventy-eight percent of the nursing facility respondents said that a physician’s order was
required before any mental health services could be performed. They said that if someone
else in the facility or a family member requested mental health services, the attending
physician had to be consulted ‘and write the request. We found that 58 percent of the
sample services had referrals by the primary care physician. Even in many of those cases
there were standing orders which did not necessarily address the specific needs of the
individual patient. However, in over a third of the records the reviewers could not
determine who referred the patient

Impediments To Social Service Staff Involvement

Most of the nursing facilities contacted (85 percent) have a social service staff which
varies in size. The educational background of staffs also varies fkom that of a high school
graduate with no mental health educational background to a Doctorate in Social Work with
many Bachelor and Masters level social workers in between. They usually provide
supportive services or counseling (75 percent), take part in the psychosocial assessment
(47 percent) and provide other services as needed to help the residents and families adjust
to the nursing facility.

The nursing facility respondents say that the social service staff are burdened by
paperwork. They say that even when their social service staff is qualified to provide
psychotherapy, they do not have the time. One nursing facility administrator said,
“Mental Health services could be provided in house by most facilities if the social worker
were not so burdened by paperwork. The social worker doesn’t have time and
psychological services are not in the Medicaid rate. ”




                                           14

Missing Treatment Plans

Twenty-eight percent of the records for patients receiving psychotherapy had no treatment
plan, while another 22 percent of records of those receiving therapy or testing did not
show whether the plan was carried out, In 43 percent of the records we could not
determine if any goals were met. Only 15 percent of the records included the PASARR.

The lack of treatment plan and goals make it difficult to measure a patient’s progress
and make appropriate adjustments during a course of treatment. It also makes it more
likely for a provider to provide services without need.

tick   of Utilization Guidelines

Carriers have difficulty denying services when they have no clear guidelines or utilization
parameters. It is not cost effective to review services on a case by case basis. A quarter
of the carriers pointed to lack of either clear HCFA guidelines or clear definitions of
medically necessary mental health services and who may provide them. One carrier
mentioned that the same provider is dealt with differently by different carriers. This is
supported by the documents we received from the carriers as well. This is also supported
by the medical review, where the variation in coverage of services is reflected in billings
and inappropriate payments.

Luck of Carrier Policies and Screens Specific To Nursing Facilities

Almost all carriers have policies and procedures about outpatient mental health services;
however, we found that only three have any policy specific to nursing homes.

Three-quarters of the carriers have screens or edits relating to mental health services in
general, but few have any that relate specifically to mental health services in a nursing
facility. Of those carriers that have screens, 61 percent have a screen which prevents
evaluation and management services and psychotherapy on the same day and/or
medication management on the same day as psychotherapy. Two carriers have a screen
for certain diagnoses such as dementia or Alzheimer’s Disease. The provider must
document the medical necessity of the service.

The majority of carrier respondents report using screens and edits, requiring additioml
documentation, periodic reviews such as focused medical reviews, monetary settlements,
referrals to investigative agencies, special reviews, and education and interagency
coordination to ensure appropriate payment. They are beginning to give attention to these
services in nursing facilities.

The clinical reviewers often questioned the need for the high frequency of the services
provided in the records reviewed. They wondered whether there should be screens for
more than one evaluation in a period of time without a documented change in the patient’s
status and they questioned the large number of individual and group psychotherapy
sessions provided per week, sometimes more than one a day.


                                           15
All but three carriers sent us educational material, but generally not specific to nursing
facilities. Eigh&-sk percent send bulletti ornewsletiers toclfical psychologisG~d
certified social workers which include information about payment. One carrier has a
manual specific to mental health services. Forty-three percent of the carriers have
seminars or workshops which include information about mental health services. one
carrier mentioned that they meet with the psychological association quarterly to discuss
concerns and issues.

difficulty Identifying P~”ents’ Nursing Facilities

In 30 cases we were unable to identify the nursing facility to request the records. In
many other cases we used a comprehensive nursing home computer file to find the name
of the facility when only an address was available. The mailing address of the beneficiary
on the top of the hard copy claim form often does not include the name of the nursing
facility, nor is it listed on the bottom of the form as the facility where services are
rendered. On electronic claims it is even more difficult to identify the nursing facility
where the beneficiary resides. Not being able to determine the facility where the
beneficiary resides, it is then impossible to retrieve the records to review to determine
unnecessary or questionable services in a nursing facility.




                                            16

                     RECOMMENDATION

HCFA needs to take steps to prevent inappropriate payments for mental health services in
nursing facilities. The challenge lies in ensuring the integrity of Medicare payments while
promoting the delivery of needed care. There probably is no one simple solution.
Instead, a battery of carefi,llly applied remedies is needed.

Based on the nature of the problems that we identified, we suggest the following
approaches that HCFA, in concert with the carriers, might take:

   �    Develop guidelines for carriers with delineation of exactly what the psychiatric
        procedure codes mean, what can be billed for, who can bill, and how often;
   �    Develop screens to implement these guidelines;
   �    Conduct focused medical reviews;
   �    Provide educational activities to providers of mental health services;
   �    Clari@ who can provide services incident to physician or clinical psychologist
        services;
   �    Assure that the nursing facility provider number and name is on all claims for
        patients in nursing facilities;
   �    Clarify the requirements needed to become an independent mental health provider;
   �    Identify and disseminate information about effective ways to help residents adjust
        quickly to the nursing facility to prevent the need for later clinical intervention;
        and
   �	   Convene a group of medical professionals to develop best practices in documenting
        the nursing facility medical record and provide guid-mce to nursing facility         -
        professionals.

OPERATION RESTORE TRUST STRATEGIES

This inspection is a part of a Department of Health and Human Services       anti-fraud
initiative called Operation Restore Trust designed to target fraud, waste,   and abuse related
to home health agencies, nursing homes, and durable medical equipment         suppliers. This
initiative targets California, Florida, Illinois, New York, and Texas, the   five States with
the highest number of Medicare and Medicaid beneficiaries.

We will work with HCFA and the Administration on Aging (AoA) to follow up on issues
raised in this report in a variety of ways as they relate to Operation Restore Trust. For
example, we will refer possible cases of fraud and abuse found in this inspection for
additional review by HCFA and our own audit and investigations units, as appropriate.
HCFA’S protocol for survey and certification staff to look at mental health services in
nursing facilities when on-site will be beneficial not only in preventing inappropriate
payments, but also in improving the quality of services. We will also communicate with
the Administration on Aging to make the State Ombudsmen aware of possible
inappropriate or inadequate mental health services. We intend to issue a follow-up report
providing information specific to the five project ORT States.


                                            17
We received comments on the draft report from HCFA and the Assistant Secretary for
Planning and Evaluation (ASPE). They concur with our recommendation. They also
provided suggestions for changes in wording, clarifications of the text and technical
changes which we have for the most part incorporated into the fiml report. The actual
comments received are in Appendix D.

The HCFA agreed with our suggestion to clarify who can provide services incident to
physician or clinical psychologist services. However, they believe that they should ensure
that only those individuals who bill meet the required qualifications, fulfill all the
requirements under the “incident to” benefit, and assume responsibility for the services
furnished by their auxiliary personnel. WMe we agree with that, we also believe that
clarification of this requirement should be expanded to require that the direct provider of
the service, not only the biller, meets certain qualifications. The performance of mental
health services, such as psychotherapy and psychological testing, requires a certain skill
level to be safe and effective.

The HCFA did not agree with the need to assure that the nursing facility provider number
and name are on all claims for patients in nursing facilities. They do not see how
requiring this can help Medicare contractors make determinations about appropriateness of
the services. They also say that Medicare already requires that providers record the
address if the place of service is other than “home” or “office.” They feel it would be a
needless additioml burden on the provider to obtain and record provider numbers of the
facility. We understand that contractors do not need this information to make medical
necessity determinations on a case by case basis. We believe, however, that the site of
service, that is the nursing facility name, address and provider number, is important for
contractors and others using Medicare data to know. During the course of this inspection
we found that providers did not record this information on Medicare claims in a
systematic way. However, it is necessary information for any kind of proactive trend
analysis; to detect whether services are part of the nursing facility inclusive rate; and/or to
do any site of service comparisons. In this study it was necessary to collect the nursing
facility medical record. This was difficult since the nursing home name was ofien
missing.

The HCFA also offered several technical comments. They are concerned about an over
reliance on medical doctors making decisions about the delivery of mental health services
since they say that medical doctors may have no expertise in the diagnosis and treatment
of mental health problems. The HCFA also says that many geriatric nurses and social
workers may have extensive training and experience in providing mental health services
for this population; and that as long as individuals are practicing within the scope of their
State licensing laws, claims should not be denied on the basis of credentials alone. We
agree with this in principle, but this did not always appear to be the case in the records
we reviewed. We did not, however, question any claims on the basis of credentials alone.
The peer review determinations were done on the basis of necessity of the services
rendered.


                                             18

The HCFA was also concerned that we did not address the possible over utilization of
psychoactive medications in the nursing home population. Although we do have data
about the psychoactive medications the residents in our sample were taking, decisions
about the appropriateness of these medications was not within the scope of this inspection.

Finally, the HCFA believes that our recommendations should be strengthened in regard to
enforcement since some of the practices described are clearly fraudulent. We agree with
this need for strong enforcement. We will be referring all of the unnecessary and
questiomble cases and those without enough information to the appropriate agency for
further development and to our Office of Investigations when appropriate.




                                          19

                        APPENDIX                    A




                 DESCRIPTION OF PROCEDURE CODES

90801�   Psychiatric diagnostic interview, examination including history, mental
         status, or disposition (may include family or other sources, ordering and
         medical interpretation of laboratory, or other medical diagnostic studies in
         lieu of the patient).

90830    Psychological testing by physician, with written report, per hour.

90843�   Individual medical psychotherapy by a physician with continuing medical
         diagnostic evaluation, and drug management when indicated, including
         insight oriented behavior modifying or supportive psychotherapy,
         approximately 20 to 30 minutes.

90844    Individual psychotherapy approximately 45 to 50 minutes.

90853	   Group medical psychotherapy (other than of multiple family group) by a
         physician, with continuing medical diagnostic evaluation and drug
         mamgement when indicated.




                                    A-1

                              APPENDIX                    B

      SAMPLING, PROJECTIONS, CHI-SQUARE VALUES AND PRECISION

Sampling

A simple random sample was drawn for this inspection. The sample frame was the
population of Medicare beneficiaries who in 1993 had one of five mental health codes in
the HCFA Common Procedure Coding System (90801, 90830, 90843, 90844, and 90853)
with the place of service being a nursing facility or skilled nursing facility . We excluded
any beneficiary who had claims only for HCPCS 90801 billed by a psychiatrist. This left
a total of 1,332 beneficiaries. We then randomly sampled 540 of the 1,332 beneficiaries.

We requested the nursing facilities to send us the medical records for these beneficiaries.
We received 397 records, a response rate of about 75 percent. Based on our analyses,
these 397 fell into the following three groups:

       1)�    109- Passed the initial screening of the first service in 1993 by screeners
                   from FMAS, Inc. (the contractor) or by the inspection team and
                   were not referred for fiu-ther review;
       2)�    248- Were referred to contractor reviewers to review all 1993 services;
                   and
       3)      40- Did not have enough documentation to review.

For the 248 records reviewed by the contractor for all 1993 services, the four outcomes
were as follows:

       1)     59- All services were medically necessary;
       2)     41- All services were medically unnecessary;
       3)�    85- Some of the services were medically necessary and some medically
                  unnecessary; and
       4)�    63- AU services were highly questiomble with respect to medical
                  necessity.

Projections

Two projections of cost savings to the universe of 1,332 beneficiaries from which the
sample was drawn were calculated based on the 189 records identified by the contractor as
containing unnecessary or questiomble services among the 248 records reviewed. The
frost projection in Table B1 below was based on categories 2 and 3 above (including the
all or some medically unnecessary services) and on a sample size of 248. The second
projection was based on the highly questionable, and using the same sample size.




                                          B-1

The table below presents two projections.

                                       Table B1

                   Projections of Cost Savings For Five HCPC Codes
                 Basedon Unnecessary or Highly Questionable Services




          Service Outcomes              Sample       Weighted        Boundaries for 95
                                          Size      Projections        % Coni3dence
                                                                         Interval
  1) All or some services medically         248     $16,674,667       +/- $4,447,227
   unnecessary (n= 126)
 2) All services highly                     248     $10,304,993       +/- $3,631,827
    questionable (n=63)

The dollar amount is a conservative estimate because there were cases where we could not
determine the exact dollar amount; in which case we did not include any amount.




                                            B-2

Chi-Square Values

We computed chi-square values for differences in unnecessary and/or questionable
services for each of the five variables on which such differences are reported in our
findings. Chi-square values show that differences on all five variables were significant at
the 95 percent confidence level.

                                            Table B2

              CHI-SQUARE Values for Testing Significance of Differences
              in Unnecessary and/or Questionable Services for Procedure,
                        Provider, Age, Didgnosis, and Re@”on



                  VARIABLE            DF*
                                                   I   CHI-SQUARE          II
                   Procedure           1           I   21.712              II
                   Provider
                   Age
                   Diagnoses
                   Region              1                3.958

              *Degrees of Freedom

Precision

Response rates on individual items in the medical record screening document varied from
item to item. Except where otherwise specified, the number of items are equal to the 357
records reviewed. We can conservatively estimate that the measured precision of the
results for categorical questions is no more than 4.8 percent at the 95 percent conlldence
level.

Some items only applied to a portion of the sample. In those cases the precision ranged
from 5.2 percent to 8.7 percent. only one case was out of the range at 11.8 percent.

The number of responses to individual questions in the nursing home administrator’s
questionnaire varied from a low of 89 to a high of 102. Taking the low value of 89 as the
sample size, we can conservatively estimate the measured precision of the survey results
for the categorical questions as 10 percent, at the 95 percent confidence level.




                                            B-3

                                 APPENDIX                    C

               ANALYSIS OF RESPONDENTS AND NON-RESPONDENTS

An important consideration in surveys of t.his type is the bias that may be introduced into the
results if non-respondents differ from respondents to the survey instrument. For this
inspection, a beneficiary whose medical record was not obtained or was incomplete is a non-
respondent. To test for the presence of any bias, we f~st obtained information from the
Common Working File (CWF) for all 540 beneficiaries whose medical records were
requested, including both respondents and non-respondents. There were 183 non-
respondents, including 143 beneficiaries for whom we received no records and another 40
with incomplete records. The remaining 357 beneficiaries for whom complete records were
received are our respondents.

We found the following four variables related to unnecessary or questionable services among
respondents: type of service (psychological testing and group therapy vs, evaluation and
individual therapy), type of provider (psychiatrist vs. psychologist and social worker), age
group (under 85 vs. 85 and older), and region ( the South vs all other regions.) Differences
between respondents and nonrespondents for each of these four variables were tested for
significance using Chi-square with the appropriate degrees of freedom.

The results of this analysis are presented in tables C 1-4. The Chi-square values given in the
tables provide a test of significance for the differences in the distribution of respondents and
non-respondents for each variable of interest. Also provided in the tables are the response
rates for the different values of the variables.

These tables show a statistically significant difference between respondents and non-
respondents with respect to age and region. We therefore estimated the effect of these
differences on our original findings. Assuming the non-respondents 85 and older would have
had the same rate of unnecessary and questiomble services as respondents 85 and older, the
percent of such services for the study universe of beneficiaries from whom the sample was
selected would have decreased only slightly from 52.94 percent to 52.41 percent. This
change is very minor and well within the bounds of our conildence interval.

We also estimated the effect of the difference between the percent of respondents and
nonrespondents by region. Assuming that the non-respondents from each region would have
had the same rate of unnecessary or questionable services as respondents from the same
regions, the percent of such services for the study universe would have increased very
slightly from 52.94 percent to 53.73 percent, This change is also minor and well within the
bounds of our contldence interval, therefore not differing significantly from-the percent
found among our respondents. In summary, our analysis of key characteristics of non-
respondents indicates that our original results are not biased due to their non-response.




                                             c-1
                                         Table C (1 - 4)


                   CHI-SQUARE Values for Testing Significance of Differences

                        Between Respondents and Non-Respondents For

                           (1) ~pe of Service, (2) ~pe of Provider,

                                 (3) Age and (4) Region


                                    (1) TYPE OF SERVICE


                                  Respondents         Non-respondents     Total    Percent
   Psych Testing & Group           66 (18%)              37 (20%)         103       64%
   Therapy
   Evaluation & Individual        291 (82%)             146 (80%)         437       67%
   Therapy
   All Services                       357                   183           540       66%

CHI-SQ=.235

Degrees of Freedom = 1



                                   (2) TYPE OF PROVIDER



                                  Respondents
          Non-respondents    Total   Percent
   Psychiatrist
                   160 (48%)
              74 (45%)         234     68%
   Clinical Psychologist
          133 (40%)
              71 (43%)         204     65%
   Clinical Social Worker
          34 (lo%)
              16 (10%)         50      68%
   Nurse Practitioner
               8 (2%)
                 3 (2%)          11     73%
   All Providers *
                   335
                    164           499     67%


CHI-SQ= .684

Degrees of Freedom = 3


* The above totals are less than the previous totals due to the elimination of some categories
 that were very small (such as nurse specialist) and some that could not be determined.




                                                c-2
Table C (Continued)

                                           (3) AGE


                        Respondents       Non-respondents          Total       Percent
  85 or older            138 (39%)           52 (28%)              190          73%
  < 85                  219 (61%)           131 (72%)              350          63%
  All Ages                  357                   183              540          66%

CHI-SQ=5,56*

Degrees of Freedom = 1


*Significant at the .982 level





                                      (4) REGION

                  ,
                        Respondents         Non-respondents        Total        Percent
  Northeast              107 (30%)                26 (15%)          133          80%
 Midwest                  95 (27%)                52 (29%)          147          65%
  south                  112 (31%)                63 (35%)          175          64%
 West                     43 (12%)                38 (21%)           81          53%
                                                              I

   All Regions              357       I             179       I    536     I     66%

CHI-SQ=18.911*

Degrees of Freedom = 3


*Significant at the .999 level





                                            c-3
                              APPENDIX                  D

                        COMMENTS ON THE DRAFI’ REPORT

In this appendix, we present in full the comments from the Health Care Financing
Administration and the Assistant Secretary for Planning and Evaluation.




                                          D-1

           *S* wcl,,o
 *4
      +F
                        G
�
:* .                          DEPARTMENTOF HEALTH& HUMAN SERVICES                                  Health Care Financing Administration
;
 8
  “+
      -g
   ‘+~8,,w
     >                                                                                             The Administrator
                                                                                                   Washington, D.C.    20201




                        DATE:           lt4R2219$J5

                        TO:           June Gibbs Brown
                                      Inspector General
                                                                        W
                        FROM:         Bruce C. Wade    .
                                      Administrator   %“ \

                        SUBJECT:	 Office of Inspector General Draft Report: “Mental Health Services In
                                  Nursing Facilities,” (OEI-02-91-O0860)

                        We reviewed the subject draft report which discusses possible vulnerabilities to the

                        Medicare program in the provision of mental health services to nursing facility residents.


                        Our detailed comments are attached for your consideration. Thank you for the

                        opportunity to review and comment on this report. Please contact us if you would like to

                        discuss our comments tier.


                        Attachment                                                  /




                                                                                          ..
                                                              .
                                                              ~._.---. .- - ....-
                     Health Care Financing Administration (HCFA) Comments
                             On Office of Inspector General Drafl Report:
                            “Mental Health Services in Nursi.ruzFacilities.”
                                          0EI-02-91-O0860


OIG Recommendation

HCFA needs to take steps to prevent inappropriate payments for mental health services in
nursing facilities. There probably is no one simple solution. Instea~ a battery of
carefidly applied remedies are offered.

HCFA Response

We basically agree with this premise and offer the following comments on each
approach.

Apuroach 1

Develop guidelines for camiers with delineation of exactly what the psychiatric procedure
codes meq what can be billed for, who can b~ and how often.

HCFA Res~onse

We agree that there is a need for a clear delineation of the psychiatric procedure codes,
and in fac$ such a system exists under the Physician’s Current Procedural Terminology
coding system. Accordingly, HCFA does not believe there is any need for fhrther
definition of these procedure codes or duplication of the American Medical Association’s
efforts. We also agree that clear distinctions are needed when it comes to the what who,
and intend to discuss these issues in detail in the final rule, Medicare Coverage and
Payment of Clinical Psychologists, other Psychologis~ and Clinical Social Worker
Services. Regarding the frequency of coverage we understand that the
Psychiatry/Psychology Carrier Medical Directors’ workgroup is developing model
medical review policies that would establish medical review guidelines to help determine
whether the frequency of services rendered to patients is reasonable and necessary based
on their diagnosis and/or treatment plan.
Page 2

Amxoach 2

Develop screens to implement these guidelines.

HCFA Response

We will develop the proper screens for Medicare contractors to implement the final
guidelines.

Approach 3

Conduct focused medical reviews.

HCFA Response

We agree that focused medical reviews will limit payments for inappropriate services,
and Medicare contractors are now conducting these on mental health services.

Amxoach 4

Provide educational activities to providers of mental health services.

HCFA Res~onse

We concur. Once model policy becomes available to all contractors (or HCFA revises its
own policyhstructions), contractors will no@ providers of the new policy and its
requirements.

Approach 5

Clari& who can provide services incident to physician or clinical psychologist services.

HCFA Response

We concur. Since the statutory benefit allOWSonly certain qualified individuals to bill for
the services of their employees as if they had fbrnished the services themselves, HCFA
believes that it should ensure that these individuals who bill meet the required
qtications,      fu.Mll all the requirements under the “incident to” benefig and assume
responsibility for the services fhrnished by their auxilky personnel.
Page 3

Approach 6

Assure that the nursing facility certification number and name is on all claims for patients
in nursing facilities.

HCFA ResDonse

We disagree. We do not see how requiring a provider to record on the claims form the
certification number of the nursing facihty in which the beneficiary resides can help
Medicare contractors make determinations about the appropriateness of the services.
Medicare already requires that providers record the address if the place of service is other
than “home” or “office.” It would be a needless additional burden on the provider to
obtain and record certification numbers.

Approach 7

Clari@ the requirements needed to become an independent mental health provider.

HCFA Response

We agree that there is some confbsion about who can quali& as a clinical psychologist
(Cp) while the statute is quite clear about the requirements for clinical social workers
(CSW). A final rule which is currently under development will refine the CP
qualifications that are in place under manual instructions and those proposed in the notice
of proposed rulemaking on the CP benefit. The qualifications in the final rule will take
into account the extensive public comments as well as numerous inquiries that HCFA has
received about the CP definition and establish a precise definition.

AuProach 8

Identi& and disseminate information about effective ways to help residents adjust quickly
to the nursing facility to prevent the need for later clinical intervention.

HCFA Response

We agree.
Page 4

Amxoach 9

Convene a group of medical professionals to develop best practices in documenting the
nursing facility medical record and provide guidance to nursing facility professionals.

HCFA Response

Components of HCFA have recently worked with various medical societies to develop
documentation guidelines for evaluation and management codes. We will continue our
work in this effort.

Technical/General Comments

1.    There is an inaccurate statement contained in the second fidl paragraph on page 3
      of this report. The statement reads, “In additio~ effective July 1990, direct
      payment to clinical psychologists and clinical social workers can be made in all
      settings.” While direct payment may be made to CPS in all settings, the law
      excludes the provision of direct payment to CSWS for services fhrnished to
      inpatients of a hospital or those services fhrn.ished to inpatients of a skilled nursing
      facility that the facility is required to furnish in order to participate in Medicare.
      Accordingly, the correct wording is that direct payment to CPS can be made in all
      settings and to CSWS inmost settings.

2.�   We are concerned about what maybe an over reliance on medical doctors in
      making decisions about the delivery of mental health services (e.g., “Lesser Skilled
      Persons Providing Services”, pg. 11 and “Lack of Physician Involvement?’,
      pg. 14.) Medical doctors may or may not have expertise in the diagnosis and
      treatment of mental health problems, particularly relating to the geriatric
      population. Many geriatric nurses and social workers, for example, may have
      extensive training and experience in providing mental health services for this
      population. As long as individuals are practicing within the scope of their state
      licensing laws, claims should not be denied on the basis of credentials alone.

3.    While we concur that depression is probably under diagnosed in the nursing home
      population an~ therefore, under treate~ we are concerned that the report makes
      no mention of over utilization of psychoactive medications. (See “Some
      Beneficiaries Are Not Getting Needed Care”, pg. 10.) It is our experience that
      these medications are often used inappropriately for residents who are bothersome
    .




    Page 5

          to staff or other residents, rather than attempting less intrusive treatments which
          have proven effective for many individuals. Ag@ this relates to approach 2
          above, since general practitioners may not have the expertise dealing with mental
          health problems in tl& population an-~ therefore, reso~ to psychoactive
          medications as the first response to people with behavioral difficulties.

    4.�   Finally, while we agree with the educational approach taken in the
          recommendations, we believe the recommendations could be strengthened in
          regard to enforcement. Some of the practices described in the report are clearly
          fraudulent. We, therefore, would like to see some specific recommendations as to
          how those cases might be more aggressively pursued.




—
   ,*%S**l-*   1,,,


�
A+


      Jg
                                                                                                      office of the Secretary
,*                           DEPARTMENT OF HEALTH& HUMAN             SERVICES
2
;
  %
   *+                                                                                                 Washington,         D.C.     20201
    %ztiam
      >




                                                                                                         .:,- sJ.#
                                                                                                         . .

                                                                                                                            .+~

                                                                                                          :j,,       s
                                                                                                                     >
     ;.-l

                                                                                                       (3’           ~
                      TO:            June Gibbs Brown                                                  rllc
                                                                                                       ~ -.(;        -      9,,?
                                                                                                       1:            u       .:
                                     Inspector General�                                                 /“.z:.­
                                                                                                        ;.. :,-       q-j    ;-j
                                                                                                        1-, ,:
                      FROM:           Assistant Secretary for                                                ,..,
                                                                                                               ./     @
                                      Planning and Evaluation                                                 :~�     a
                                                                                                               ---
                                                                                                                .,    m
                      SUBJECT:        OIG Draft Report, “Mental Health Services in Nursing Facilities”
                                                                                    L&oz+”           @UO
                      This office has reviewed and concurs with the OIG draft report entitled “Mental Health Services
                      in Nursing Facilities.” Staff had the following minor comments and recommendations which
                      were shared with OIG staff on March 4, 1996.

                      1).�    Clari@ that the scope of the report applies to both Medicare and Medicaid, skilled
                              nursing facilities and nursing facilities.

                      2).�    Include in the Background Section of the report information on payment methodologies
                              for mental health professionals.

                      3).�     Clarify (perhaps through a footnote) the rationale for the 62.5% limit on Medicare
                               payments for mental health services.

                      4).�     Ensure that appropriate staff at the Substance Abuse Mental Health Services
                               Administration were consulted for input into this report.




                                                       /q(+.; ,f/J$J_up_
                                                                Peter B.&delma.n          d
